/MasterCard

®

®

CREDIT CARD AGREEMENT

255 N. Lone Hill Ave. San Dimas, CA 91773

NOTICE: See reverse side for important information regarding your rights to dispute billing errors.
In this Agreement, the words you and your mean the person or persons who use or authorize the use of, or who sign an application for, a Christian Community Credit Union VISA/MasterCard. Card means
the Christian Community Credit Union VISA/MasterCard and any duplicates and renewals the Credit Union issues to you. Account means your VISA/MasterCard line of credit account with the Credit Union.
Credit Union means Christian Community Credit Union.
1. Using the Account. If your application for a VISA/MasterCard account is approved, the
Christian Community Credit Union will establish a line of credit for you and notify you of its amount
when the card is sent to you. You agree not to let your account balance exceed your approved credit
limit. Each payment you make on the account will restore your credit limit by the amount of the payment
which is applied to the principal amount of purchases and cash advances. You may request an increase
in your credit limit only by written application submitted to the Credit Union. The Credit Union has the
right to reduce or terminate your credit limit at any time.
2. Using the Card. You may use your card to purchase goods and services in person, online, and
by mail or telephone from merchants and others who accept VISA/MasterCard credit cards. In addition,
you may obtain cash advances up to $1,000 of your approved and available credit limit from the Credit
Union, from other financial institutions or select merchants participating in the VISA/MasterCard program
and from automated teller machines (ATMs), such as VISA/MasterCard ATM Network, that provide access
to the VISA/MasterCard system. (Not all merchants or ATMs provide such access.) You will need to use
your Personal Identification Number (PIN) to obtain a cash advance from an ATM.
3. Illegal Use of VISA/MasterCard Credit Card. You agree that your VISA/MasterCard
Credit Card Account will not be used to make or facilitate any transaction(s) that are or might be construed
to be illegal pursuant to applicable law, rule or ordinance, including but not limited to gambling. Said
use, including any such authorized use, will constitute an event of default under this Agreement. You
agree that the Credit Union has no liability, responsibility or culpability whatsoever for any such use by
you or any authorized user(s). You agree that you are responsible for repayment of any and all debts
incurred for these transactions. You further agree to indemnify and hold the Credit Union harmless from
any suits, liability, damages or adverse action of any kind that results directly or indirectly from such
illegal use.
4. Responsibility. You agree to pay all charges (purchases and cash advances) to your account
made by you or anyone who you authorize to use your account. You also agree to pay all other charges
added to your account, pursuant to Paragraph 7.Your obligation to pay the amount owed on your account
continues until paid in full even though an agreement, divorce decree or other court judgment to which
the Credit Union is not a party may direct someone else to pay the account balance. If more than one
person signs this Agreement, each is individually responsible for all amounts owed on the account and
all are jointly responsible for all amounts owed. This means the Credit Union can enforce this Agreement
against any of you individually or all of you collectively.
5. Finance Charges. In order to avoid a FINANCE CHARGE on purchases made since
your last statement date, you must pay the Total New Balance shown on your statement within 25 days
of the statement closing date. Otherwise the FINANCE CHARGE on purchases is calculated
from the beginning of the next statement period on previously billed but unpaid purchases and on new
purchases from the date they are posted to your account. Cash advances and balance transfers are
always subject to a FINANCE CHARGE from the date they are posted to your account.
We figure the FINANCE CHARGE on your account by applying the periodic rate to the ‘‘average
daily balance’’ of your account. To get the ‘‘average daily balance’’ we take the beginning balance of
your account each day, add any new purchases, and cash advances, and subtract any unpaid other
finance charges and any payments or credits. This gives us the daily balance. Then, we add up all the
daily balances for the billing cycle and divide the total by the number of days in the billing cycle. This
gives us the ‘‘average daily balance.”
VISA Signature Rewards, VISA Rewards and World MasterCard
Rewards Accounts
Your VISA Signature Rewards, VISA Rewards and World MasterCard Rewards
Accounts will be subject to a FINANCE CHARGE (interest) at an ANNUAL PERCENTAGE
RATE and a corresponding Monthly Periodic Rate which will be a standard variable
(floating) rate based upon an index plus a margin. The margin applicable to your account will
be determined by your creditworthiness. The ANNUAL PERCENTAGE RATE and the
corresponding Monthly Periodic Rate will apply to purchases, cash advances and
balance transfers.
Index
The Index is Prime Rate (“Index”). Information about this Index is published in the Money Rates Table
of the Wall Street Journal.
Rate Changes
The ANNUAL PERCENTAGE RATE may change on the first (1st) day of each billing cycle.
These are known as rate change dates. The Index value used for a given billing cycle will be the
value published on first (1st) business day before the change date or the most recently published value
published before the change date. If more than one rate is published, the Index will be the highest of
the rates published. If the Index ceases to be published, the Credit Union will choose a new Index and
give you notice of its choice.
Determination of Annual Percentage Rate
The Credit Union will add a margin ranging from 7.65% to 13.65%, depending on your credit score,
to the Index to get the ANNUAL PERCENTAGE RATE applicable to your Account for the billing
cycle. Notification of the margin for which you have been approved will be provided on the VISA Signature
Rewards, VISA Rewards and World MasterCard Rewards Accounts Approval Letter sent to you upon
completion of the credit review and approval.
ANNUAL PERCENTAGE RATE for the billing cycle will be divided by twelve (12) to get the
corresponding Monthly Periodic Rate for the billing cycle. An increase or decrease in the Prime
Rate will lead to an increase or decrease in your ANNUAL PERCENTAGE RATE and the
corresponding Monthly Periodic Rate applicable to your Account.

CU Store # 7018e

Limitations on Changes
There is no limit on the amount by which the rate changes in any one-year period. The maximum
ANNUAL PERCENTAGE RATE that can apply is 18.00%.
Annual Percentage Rate Example
Based upon a margin of 7.65% (your margin may be different depending on your credit score) plus
an Index value of 3.50%, (which was the value of the Index on May 1, 2016), your Account would
be subject to a FINANCE CHARGE (interest) at an ANNUAL PERCENTAGE RATE of
11.15%, with a corresponding Monthly Periodic Rate of 0.929%.
On the first (1st) day of each calendar month and on each subsequent change date, the ANNUAL
PERCENTAGE RATE and the corresponding Monthly Periodic Rate will be calculated
according to the formula described above and will be stated on our VISA Signature Rewards, VISA
Rewards and World MasterCard Rewards Accounts Approval Letter.

VISA Business Rewards Account

Your VISA Business Rewards Account will be subject to a FINANCE CHARGE (interest)
at an ANNUAL PERCENTAGE RATE and a corresponding Monthly Periodic Rate
which will be a standard variable (floating) rate based upon an index plus a margin of 7.65%. The
ANNUAL PERCENTAGE RATE and the corresponding Monthly Periodic Rate will
apply to purchases, cash advances and balance transfers.
Index
The Index is Prime Rate (“Index”). Information about this Index is published in the Money Rates Table
of the Wall Street Journal.
Rate Changes
The ANNUAL PERCENTAGE RATE may change on the first (1st) day of each billing cycle.
These are known as rate change dates. The Index value used for a given billing cycle will be the
value published on first (1st) business day before the change date or the most recently published value
published before the change date. If more than one rate is published, the Index will be the highest of
the rates published. If the Index ceases to be published, the Credit Union will choose a new Index and
give you notice of its choice.
On the first (1st) day of each calendar month and on each subsequent change date, the ANNUAL
PERCENTAGE RATE and the corresponding Monthly Periodic Rate will be calculated
according to the formula described below and will be stated on our VISA Business Rewards Approval Letter.
Determination of Annual Percentage Rate
The Credit Union will add a margin of 7.65% to the Index to get the ANNUAL PERCENTAGE
RATE applicable to your Account for the billing cycle. Based upon an Index value of 3.50%, (which was
the value of the Index on May 1, 2016), your Account would be subject to a FINANCE CHARGE
(interest) at an ANNUAL PERCENTAGE RATE of 11.15%, with a corresponding
Monthly Periodic Rate of 0.929%.
ANNUAL PERCENTAGE RATE for the billing cycle will be divided by twelve (12) to get the
corresponding Monthly Periodic Rate for the billing cycle. An increase or decrease in the
Prime Rate will lead to an increase or decrease in your ANNUAL PERCENTAGE RATE and the
corresponding Monthly Periodic Rate applicable to your Account.
Limitations on Changes
There is no limit on the amount by which the rate changes in any one-year period. The maximum
ANNUAL PERCENTAGE RATE that can apply is 18.00%.
6. Change in Terms; Changing or Terminating Your Account. The Credit Union
may change the terms of this Agreement, including your ANNUAL PERCENTAGE RATE, from
time to time for any reason not inconsistent with applicable law after giving you any advance notice
required by law. Your use of the card after receiving notice of a change will indicate your agreement to
the change. To the extent the law permits, and except as otherwise indicated in the notice to you, the
change will apply to your existing account balance as well as to future transactions. Either the Credit
Union or any one of you may terminate this Agreement at any time, but termination by you or the Credit
Union will not affect your obligation to pay the account balance plus any finance and other charges you
owe under this Agreement. The cards you receive remain the property of the Credit Union and you must
recover and surrender to the Credit Union all cards upon request or upon termination of this Agreement
whether by you or the Credit Union.
7. Other Charges. The following Other Charges will be added to your account, as applicable:
•
If you are a credit card member only with no other relationship with Christian Community Credit
Union, a one-time non-refundable membership fee of $25.00 will be charged to your credit card account.
•
CASH ADVANCE FEE (FINANCE CHARGE): You will be charged a cash advance fee of 2% of
the amount advanced with a $5.00 minimum.
•
COPIES: If you request a copy of any document, we may charge your account $5.00 per copy
requested. If your request is related to a billing error and an error is found, we will credit any copying
charges to your account.
•
LATE PAYMENT FEE: We reserve the right to charge a late payment fee of up to $15.00 to your
account each billing period that the minimum monthly payment is not received by 15 days after due date.
•
RETURNED PAYMENT FEE: A fee of up to $25.00 will be assessed for each card payment that
is returned to the Credit Union.
•
EXPRESS CARD/PIN ORDER: A fee of $40.00 will be assessed if you request express delivery
of your card or personal identification number (PIN).

© 2000-2016 Simply Legal - All Rights Reserved

REV. 03/04/16 PTD 05/2016

•
PIN REPLACEMENT FEE: A fee of $5.00 will be assessed if your PIN needs to be replaced.
•
MINIMUM FINANCE CHARGE: The minimum Finance Charge that may be assessed is $1.00.
•
CARD REPLACEMENT FEE: A fee of $10.00 will be assessed if your card needs to be replaced
due to damage, loss, or theft.
•
BALANCE TRANSFER FEE (FINANCE CHARGE): You will be charged a balance transfer fee of
2% of the amount transferred with a $5.00 minimum.
8. Monthly Payment. Each month you must pay at least the minimum payment shown on your
statement by the Payment Due Date shown. You may, of course, pay more frequently, pay more than the
minimum payment, or pay the Total New Balance in full. If you make extra payments or larger payments,
you are still required to make at least the minimum payment each month your account has a balance. The
minimum payment is 3% of your Total New Balance but not less than $10.00, plus the amount of any prior
minimum payments that you have not paid. In addition, if at any time your Total New Balance exceeds your
credit limit, you must immediately pay the excess upon demand. Subject to applicable law, your payments
will be applied to what you owe the Credit Union in any manner the Credit Union chooses.
9. Default. You will be in default if you fail to make any minimum payment or other required
payment by the date that it is due. You will be in default if you break any promise you make under
this Agreement. You will be in default if you die, file for bankruptcy or become insolvent, that is,
unable to pay your obligations when they become due. You will be in default if you make any false
or misleading statements in any credit application or credit update. You will also be in default if
something happens that the Credit Union believes may substantially reduce your ability to repay
what you owe. When you are in default, the Credit Union has the right to immediately terminate this
Agreement and require repayment of your outstanding account balance plus any finance and other
charges you owe under this Agreement. At the Credit Union’s discretion, any shares that were given
as security may be applied towards what you owe. To the extent permitted by law, you will also be
required to pay the Credit Union’s collection expenses, including court costs and attorneys’ fees.
10. Liability for Unauthorized Use. If you notice the loss or theft of your credit card or
a possible unauthorized use of your card, you should write to us immediately at 255 N. Lone Hill
Avenue, San Dimas, CA 91773, or call us at (800) 449-7728.
You will not be liable for any unauthorized use that occurs after you notify us. You may, however,
be liable for unauthorized use that occurs before your notice to us. In any case, your liability will
not exceed $50.
11. Liability for Unauthorized Use of Your VISA Credit Card. If there is an unauthorized
use of your consumer VISA Credit Card or a Plus network or Interlink transaction, and the transaction
takes place on the VISA network, then your liability will be zero ($0.00). This provision limiting your
liability does not apply to VISA Business Rewards cards or VISA Purchasing Card Transactions,
ATM cash disbursements processed on non-VISA or non-Plus networks, or non-VISA PIN-less debit
transactions. Additionally, your liability with respect to unauthorized transactions may be greater than
the above zero ($0.00) liability limit, to the extent allowed under applicable law, if the credit union
reasonably determines, based on substantial evidence, that you were grossly negligent or fraudulent
in the handling of your account or card.
12. Liability for Unauthorized Use of your MasterCard. If there is an unauthorized use of your MasterCard
Credit Card then your liability will be zero ($0.00) so long as you have exercised reasonable care in
safeguarding your card from risk of loss or theft and upon becoming aware, you have promptly reported
the loss or theft to the Credit Union. If you cannot meet these requirements then your liability with
respect to unauthorized transactions may be greater than the above zero ($0.00) liability limit, to the
extent allowed under applicable law. In any case, to minimize your potential liability you should notify us
promptly of any unauthorized use, but no later than sixty (60) days after your statement was mailed to
you. This provision limiting your liability does not apply to MasterCard commercial cards.

13. Credit Information. You authorize the Credit Union to investigate your credit standing when
opening or reviewing your account.You authorize the Credit Union to disclose information regarding your
account to credit bureaus and creditors who inquire about your credit standing. Pursuant to state law,
you are hereby notified that a negative credit report reflecting on your credit record may be submitted to
a credit reporting agency if you fail to fulfill the terms of your credit obligations.
14. Returns and Adjustments. Merchants and others who honor the card may give credit for
returns or adjustments, and they will do so by sending the Credit Union a credit slip which will be posted
to your account. If your credits and payments exceed what you owe the Credit Union, the amount will
be applied against future purchases and cash advances. If the amount is $1 or more, it will be refunded
upon your written request or automatically after six months.
15. Foreign Transactions. Purchases and cash advances made in foreign currencies will
be billed to you in U.S. dollars. Transactions processed outside of the United States or in a foreign
currency may be charged a foreign transaction fee, regardless of whether there is a currency conversion
associated with the transaction. The conversion rate in dollars will be a rate selected by VISA from a
range of rates available in wholesale currency markets for the applicable Central Processing Date,
which rate may vary from the rate VISA itself receives, or the government-mandated rate in effect
for the applicable Central Processing Date in each instance, plus a one percentage point (1.0%) fee
charged by the Issuer.
16. MasterCard Cross-Border Transactions. Purchases and cash advances made in
foreign currencies will be billed to you in U.S. dollars. If a cross-border transaction on a U.S.-issued
credit card is submitted to MasterCard in the currency of the country of the merchant, MasterCard will
convert the transaction to the cardholder’s billing currency using its currency conversion procedure.
MasterCard uses either a government mandated exchange rate, or a wholesale exchange rate selected
by MasterCard. The government-mandated exchange rate or wholesale exchange rate MasterCard
uses for a particular transaction is the rate MasterCard selects for the applicable currency on the day
the transaction is processed, which may differ from that applicable to the date the transaction occurred
or when it is posted to your account. Added to your cross-border transaction are a MasterCard Issuer
cross-border assessment of eight-tenths of one percent (.8%) and currency conversion assessment of
two-tenths of one percent (.2%).
17. Merchant Disputes. The Credit Union is not responsible for the refusal of any merchant
or financial institution to honor the card. The Credit Union is subject to claims and defenses (other
than tort claims) arising out of goods or services you purchase with the card if you have made a good
faith attempt but have been unable to obtain satisfaction from the merchant or service provider, and
(a) your purchase was made in response to an advertisement the Credit Union sent or participated
in sending to you; or (b) your purchase cost more than $50 and was made in your state or within 100
miles of your home.
18. Effect of Agreement. This Agreement is the contract which applies to all transactions on your
account even though the sales, cash advances, credit or other slips you sign or receive may contain
different terms.
19. No Waiver. The Credit Union can delay enforcing any of its rights any number of times without
losing them.
20. Statements and Notices. You will receive a statement each month showing transactions on
your account. Statements and notices will be mailed to you at the most recent address you have given
the Credit Union. Notice sent to any one of you will be considered notice to all. You agree to promptly
notify the Credit Union if you change your mailing address.
21. Transfer of Account. You cannot transfer or assign your account to any other person.
22. Governing Law. This Agreement and your account shall be governed by California law without
regard to any conflict of law rules.

YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at: Christian Community Credit Union,
255 N. Lone Hill Avenue, San Dimas, CA 91773.
In your letter, give us the following information:

•
•
•

Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe
is wrong and why you believe it is a mistake.

You must contact us:

•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop
payment on the amount you think is wrong.

You must notify us of any potential error in writing. You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:

1. Within 30 days of receiving your letter, we must tell you that we received your letter.
We will also tell you if we have already corrected the error.

2. Within 90 days of receiving your letter, we must either correct the error or explain to you why
we believe the bill is correct.
While we investigate whether or not there has been an error:

•
•
•
•

We cannot try to collect the amount in question, or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you
interest on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder
of your balance.
We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:

•
•

If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount you owe
and the date payment is due. We may then report you as delinquent if you do not pay the
amount we think you owe. If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that you are questioning your bill. We must
tell you the name of anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.

If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question
even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:

1. The purchase must have been made in your home State or within 100 miles of your current
mailing address, and the purchase price must have been more than $50. (Note: Neither of
these are necessary if your purchase was based on an advertisement we mailed to you, or
if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances
from an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Christian Community Credit Union, 255 N. Lone Hill Avenue, San Dimas, CA 91773. While we investigate,
the same rules apply to the disputed amount as discussed above.
After we finish our investigation, we will tell you our decision. At that point, if we think you owe an amount
and you do not pay, we may report you as delinquent.

